Audit Report

Compliance with Standards Governing Combined DNA Index System Activities at the New Jersey State Police Forensic Science Laboratory Bureau, Hamilton, New Jersey

Report No. GR-70-05-005


December 2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of compliance with standards governing Combined DNA Index System (CODIS)1  activities at the New Jersey State Police Forensic Science Laboratory Bureau (Laboratory).2   The Federal Bureau of Investigation (FBI) began the CODIS Program as a pilot project in 1990.  The DNA Identification Act of 1994 (Public Law 103-322) formalized the FBI's authority to establish a national DNA index for law enforcement purposes.  The Act specifically authorized the FBI to establish an index of DNA identification records of persons convicted of crimes, and analyses of DNA samples recovered from crime scenes.  The Act further specified that the index include only DNA information that is based on analyses performed in accordance with standards issued by the FBI.

The FBI implemented CODIS as a distributed database with three hierarchical levels that enables federal, state, and local crime laboratories to compare DNA profiles electronically.  The National DNA Index System (NDIS) is the highest level in the CODIS hierarchy and enables the laboratories participating in the CODIS Program to compare DNA profiles on a national level.  The NDIS became operational in 1998 and is managed by the FBI as the nation's DNA database containing DNA profiles uploaded by participating states.  DNA profiles originate at the local level, flow to the state and national levels, and are compared to determine if a convicted offender can be linked to a crime, or if crimes can be linked to each other.

The FBI provides the CODIS software free of charge to any state or local law enforcement laboratory performing DNA analysis.  A laboratory's profiles have to be uploaded to the NDIS before the profiles benefit the system as a whole.  Before a laboratory is allowed to participate at the national level a Memorandum of Understanding (MOU) must be signed between the FBI and the applicable state laboratory.  The MOU defines the responsibilities of each party, includes a sublicense for the use of the CODIS software, and delineates the standards laboratories must meet in order to utilize the NDIS.3
The objective of the audit was to determine if the Laboratory was in compliance with standards governing CODIS activities.  Specifically, we performed testing to determine if the:  1) Laboratory was in compliance with the NDIS participation requirements; 2) Laboratory was in compliance with the quality assurance standards issued by the FBI; and 3) Laboratory's DNA profiles in the CODIS databases were complete, accurate, and allowable.

We determined that the Laboratory was in compliance with the standards governing CODIS activities with some exceptions.  Specifically, we noted the following.

We tested 10 of a total of 41 NDIS match cases and found that in 
3 of the 10 cases, the candidate matches were not resolved in a timely manner and as a consequence, the NDIS Custodian could not have been notified of the match resolution within the 30-day timeframe specified in the NDIS standards.

	We tested 100 of 1,430 forensic profiles and found that 12 were unallowable for entry into the NDIS.  Nine of the 12 forensic profiles were unallowable because the DNA profiles of the forensic samples entered into the NDIS matched the profiles of the victims.  

One of the 12 forensic profiles was unallowable because the DNA profile of the forensic sample entered into the NDIS matched the profile of a non-suspect donor.  Two of the 12 forensic profiles were unallowable for entry because the Laboratory could not exclude the victims as possible contributors to the forensic profiles.  As a result of our audit, the Laboratory removed the 12 profiles that we identified from the NDIS.  

We make three recommendations to address the Laboratory's compliance with standards governing CODIS activities, which are discussed in detail in the Findings and Recommendations section of the report.  Our audit scope and methodology are detailed in Appendix I of the report and the audit criteria are detailed in Appendix II of the report.

We discussed the results of our audit with Laboratory officials and have included their comments in the report as applicable.  In addition, we provided the draft report to the Laboratory and the FBI for review and comment.  Both the Laboratory and the FBI agreed with our findings and recommendations.  The Laboratory implemented two of our three recommendations and initiated the process to implement the third recommendation.  The Laboratory's and the FBI's comments are included in the report as Appendices III and IV, respectively.  
   



Footnotes

DNA, deoxyribonucleic acid, is genetic material found in almost all living cells that contains encoded information necessary for building and maintaining life.  Approximately 99.9 percent of human DNA is the same for all people.  The differences found in the remaining 0.1 percent allow scientists to develop a unique set of DNA identification characteristics (a DNA profile) for an individual by analyzing a specimen that contains DNA.

	The New Jersey State Police Forensic Laboratory Bureau includes the Equine Testing unit and the New Jersey State Police Laboratory System (System).  The System includes four regional forensic laboratories.  The Central Region Laboratory conducts DNA analysis on submitted evidence cases.  Our audit was limited to the DNA analysis performed at the Central Region Laboratory. 

	These standards were appended to the MOU as Appendix C - NDIS Procedure Manual.  This manual is comprised of several operational procedures that provide specific instructions for laboratories to follow for procedures pertinent to NDIS.  For our purposes, the NDIS participation requirements consist of the MOU and the NDIS operational procedures.